                             U.S. DEPARTMENT OF LABOR
                            OFFICE OF INSPECTOR GENERAL
                                   OFFICE OF AUDIT

                  DEPUTY INSPECTOR GENERAL’S REPORT ON
                APPLYING AGREED-UPON PROCEDURES FOR THE
              RETIREMENT, HEALTH BENEFITS, AND LIFE INSURANCE
WITHHOLDINGS/CONTRIBUTIONS AND THE MARCH 31, 2002 SUPPLEMENTAL SEMIANNUAL
                   HEADCOUNT REPORT SUBMITTED TO THE
                    OFFICE OF PERSONNEL MANAGEMENT

                       FOR THE YEAR ENDED SEPTEMBER 30, 2002




        This engagement was performed by Harper, Rains, Stokes & Knight, P.A., under
        contract to the Office of Inspector General, and, by acceptance, it becomes a
        report of the Office of Inspector General.


                                                                        Elliot P. Lewis

                                                   Deputy Inspector General for Audit




                                                            Report Number: 22-03-002-13-001
                                                            Date Issued: November 15, 2002
                                                                           Table of Contents



ACRONYMS.......................................................................................................................................................................................i

EXECUTIVE SUMMARY................................................................................................................................................................1

INDEPENDENT ACCOUNTANT'S REPORT
   ON APPLYING AGREED-UPON PROCEDURES .................................................................................................................2

AGREED-UPON PROCEDURES AND RESULTS ........................................................................................................................3

MANAGEMENT'S RESPONSE TO RESULTS .............................................................................................................................8
                                  ACRONYMS


APO      Agency Payroll Office
CFO      Chief Financial Officer
CSRS     Civil Service Retirement System
DOL      Department of Labor
DOLAR$   Department of Labor Accounting and Related Systems
EE       Employee Express
FEHB     Federal Employee Health Benefits
FERS     Federal Employee Retirement System
GAO      General Accounting Office
IDEA     Interactive Data Extraction & Analysis
IPS      Integrated Payroll System
OA       Office of Audit
OCFO     Office of Chief Financial Officer
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPF      Official Personnel File
OPM      Office of Personnel Management
RITS     Retirement and Insurance Transfer System
SGL      Standard General Ledger




                                         i
                                       EXECUTIVE SUMMARY


We performed the procedures specified in OMB Bulletin 01-02, Audit Requirements for Federal Financial
Statements, Agreed-Upon Procedures, Appendix I-1, to assist the U.S. Office of Personnel Management (OPM) in
assessing the reasonableness of retirement, health benefits, and life insurance withholdings/contributions, as well
as enrollment information submitted via the Supplemental Semiannual Headcount Report.

This report includes the agreed-upon procedures and the results from applying those procedures for retirement,
health benefits, and life insurance withholdings/contributions, and employee headcount information submitted to
OPM.

The agreed-upon procedures included U.S. Department of Labor personnel and payroll information for the semi-
annual period ended March 1, 2002. Agreed-upon procedures generally comprised comparative and analytical
functions. As required by the agreed-upon procedures, we used a random sample selection methodology.

Variances larger than the allowable threshold were presented in AUP steps 5c, 5d, and 6d.

Our procedures were performed in accordance with attestation standards established by the American Institute of
Certified Public Accountants




                                                        1
                      AGREED-UPON PROCEDURES AND RESULTS

Step        Agreed-Upon Procedures Performed                                   Results of Procedures
1a     Foot the payroll register or payroll data file that   We footed, without exception, the payroll information.
       contains the payroll information.
1b     Foot the RITS submission selected.                    We footed, without exception, the payroll information
                                                             from the RITS submissions
1c     Trace employee withholding information shown          We traced the footed payroll withholding to the
       on the footed payroll information for retirement,     corresponding amounts on RITS submissions selected
       health, and life insurance benefits (as adjusted      for the AUP. The differences are as follows:
       for reconciling items) to the related amounts
       shown on the RITS submission for the                                          Withholding
       corresponding period. Report any differences                                   Amount ($)          Percent
       greater than 1%.                                      Pay Period 24
                                                             Life Insurance                121.80            0.04
                                                             Health Benefits             3,091.69            0.38
       Obtain and report explanations for those              Retirement                  6,556.01            0.47
       differences above the threshold.
                                                             Pay Period 02
                                                             Life Insurance              (689.35)           -0.20
                                                             Health Benefits             (464.83)           -0.06
                                                             Retirement                 10,208.80            0.76

                                                             Pay Period 06
                                                             Life Insurance               (56.94)           -0.02
                                                             Health Benefits             7,775.14            0.84
                                                             Retirement                 12,594.07            0.89

                                                             There are no differences greater than 1%, therefore no
                                                             explanations were required.
2a     Randomly select a total of 25 individuals who         We used the IPS database provided and extracted the
       were on the payroll system for all three of the       three selected pay periods using IDEA software. We
       RITS submissions selected for testing that also       then used IDEA to select a random sample of 25
       meet the criteria set forth in OMB Bulletin 01-       employees that met the criteria in OMB Bulletin 01-
       02, Appendix I-1, Agree-Upon Procedures.              02, Appendix I-1, Agree-Upon Procedures.
2b     Obtain the following documents, either in             All documents listed in OMB Bulletin 01-02,
       electronic or hard copy format, from the OPFs         Appendix I-1, Agreed-Upon Procedures, step 2.b. for
       for each individual selected in step 2.a.             the selected individuals were obtained from the OPFs.
       • all Notifications of Personnel Actions (SF-
           50) covering the pay periods in the RITS
           submissions chosen;
       • the Health Benefits Registration Form (SF—
           2809) covering the pay periods in the RITS
           submission chosen; and
       • the Life Insurance Election Form (SF-2817)
           covering the pay periods in the RITS
           submission chosen.



                                                      3
Step       Agreed-Upon Procedures Performed                               Results of Procedures
2c     Request a report from Employee Express for          All necessary Employee Express files were viewed.
       any Health Benefits transactions in that system     All transaction dates matched those on the certified
       for the individuals selected in step 2.a. Compare   copies of the SF-2809s. All of the health benefits
       the date of the transaction with the date on the    information to be used in the step 2.g. covers the pay
       certified copy of the SF-2809 requested in step     periods in the RITS submissions chosen.
       2.b.

       Confirm that the health benefits information to
       be used in the step 2.g. covers the pay periods
       in the RITS submissions chosen.
2d     Verify that the base salary used for payroll        We verified, without exception, that the base salary
       purposes agrees with the base salary reflected      shown on the payroll register agrees with the
       on the employee’s SF-50.                            approved base salary reflected on the employee’s
                                                           Personnel Action, SF-50.
2e     For Retirement, compare the plan code on the        We verified, without exception that the retirement plan
       employees’ SF-50 to the plan code used in the       code on the employees’ SF-50 agrees to the plan code
       payroll system                                      used in the payroll system
2f     Calculate the retirement amount to be withheld      We verified, without exception that the actual
       and contributed for the plan code from the          retirement withholdings and contributions agreed to
       employees’ SF-50, based upon the official           the calculated amounts, using criteria provided by
       withholding and contribution rates required by      OPM.
       law.

       Compare to actual amounts withheld and
       contributed.
2g     For health benefits, verify that the employee       We verified, without exception, that the employee
       withholdings and agency contributions agree         withholdings and agency contributions agree with the
       with the official subscription rates issued by      official subscription rates issued by OPM for the plan
       OPM for the plan and option elected, as             and option elected, as documented by form SF 2809
       documented by form SF 2809 in the employees         in the employees OPF or through Employee Express.
       OPF or through Employee Express.
2h     For life insurance, verify that Basic Life          We verified, without exception that Basic Life
       Insurance was elected by the employees, as          Insurance coverage was elected by the employees.
       documented by a SF 2817 in the employees’
       OPF.
2i     Calculate the withholding and contribution          We verified, without exception, that actual Basic Life
       amounts for basic life insurance using the          Insurance contributions and withholdings agree to the
       following:                                          calculated amounts using the criteria provided by
       For employee withholdings:          Round the       OPM.
       employee’s annual base salary to the nearest
       thousand dollars and add $2,000. Divide this
       total by 1,000 and multiply by $0.155.
       For agency contributions: Divide the employee
       withholdings calculated above by 2.

       Compare to actual amounts withheld and
       contributed. Report any differences.
2j     For Life Insurance, compare the optional            We verified, without exception, that the optional

                                                    4
Step       Agreed-Upon Procedures Performed                             Results of Procedures
       coverage elected as documented by an SF-2817       coverage elected as documented by an SF-2817 in the
       in the employees’ OPF with optional coverage       employees’ OPF agrees with optional coverage
       documented in the payroll system.                  documented in the payroll system.

       Report any differences.
2k     Calculate the withholding amounts for the          We verified, without exception, that Optional Life
       optional life insurance coverage using the         Insurance withholdings agree to the amounts
       following:                                         calculated using the criteria provided by OPM.
       For Option A: Determine the employee’s age
       group using the age groups provided for Option
       A in the FEGLI Program Booklet.             The
       withholding amount is the rate listed in the
       FEGLI Program Booklet for that age group.
       Compare to amount withheld. Report any
       differences.
       For Option B: Inspect the SF-2817 to determine
       the number of multiples chosen for Option B.
       Determine the employee’s age group using the
       age groups provided for Option B in the FEGLI
       Program Booklet. Round the employee’s annual
       rate of basic pay up to the next 1,000, and
       multiply by the rate for the age group. Multiply
       this amount by the number of multiples chosen.
        Compare to amounts withheld. Report any
       differences.
       For Option C: Inspect the SF-2817 to determine
       the number of multiples chosen for Option C.
       Determine the employee’s age group using the
       age groups provided for Option C in the FEGLI
       Program Booklet. Multiply the rate for the age
       group by the number of multiples chosen.

       Compare to amount withheld. Report any
       differences.
3      Randomly select a total of 10 employees who        We verified, without exception, that Health Benefits
       have no Health Benefits from the three pay         were not elected by the selected employees.
       periods selected for testing.


       Verify that the employees did not elect Health
       Benefits coverage.




                                                   5
Step       Agreed-Upon Procedures Performed                            Results of Procedures
4      Randomly select a total of 10 employees who       We verified, without exception, that the selected
       have no Life Insurance withholdings from the      employees did not elect Life Insurance coverage.
       three pay periods selected for testing.


       Verify that the employees either waived or
       canceled Life Insurance coverage.
5a     Obtain existing payroll information supporting    The APO provided payroll information supporting the
       the   selected    Supplemental     Semiannual     Semiannual Headcount report.
       Headcount report.
5b     Calculate the headcount by counting the number    We calculated 16,339 employees in the payroll data
       of employees (using a computer audit routine)     file using a computer audit routine.
       on the payroll data file for the period.
5c     Compare the results of payroll information from   The total from the calculated headcount (step 5b)
       step 5a with the calculated headcount from step   does not agree with the headcount report or the
       5b to the information shown on the Semiannual     supporting documentation obtained (step 5a).
       Headcount Report.
5d     Report any differences greater than 2 percent     There is a difference between the calculated
       between the agency’s Semiannual Headcount         headcount and the Semiannual Headcount Report of
       Report and the payroll information from step 5a   738 employees, or 4.32 percent.
       and the calculated headcount from step 5b.
6a     Calculate Retirement withholdings and             All variances between the calculated retirement
       contributions by multiplying the CSRS and         withholding amounts and the RITS submissions were
       FERS payroll base by the withholding and          less than 5 percent.
       employer contribution rates required by law.
       Compare the calculated totals with related
       amounts shown on the RITS submissions.


       Report any variance greater than 5 percent.
6b     Calculate Health Benefit withholdings and         All variances between the calculated health benefits
       contributions by multiplying the number of        withholding amounts and the RITS submissions were
       employees enrolled in each Health Benefit plan    less than 5 percent.
       and plan option by the employee withholdings
       and employer contributions for the plan and
       option. Sum the totals and compare the result
       with the RITS submission.


       Report any variances greater than 5 percent.




                                                     6
Step        Agreed-Upon Procedures Performed                             Results of Procedures
6c     Calculate the Basic Life insurance withholdings      All variances between the calculated basic life
       and contributions:                                   insurance withholding amounts and the RITS
       For employee withholdings: Add the product of
                                                            submissions were less than 5 percent.
       2,000 times the number of employees with Basic
       Life Insurance coverage to the aggregate annual
       basic pay for all employees selected. This
       represents the estimated Basic Life Insurance
       coverage. Divide this total by 1,000 and
       multiply by $0.155 (for APOs with biweekly pay
       periods. Compare the results with the RITS
       submission.
       For agency contributions: Divide the employee
       withholdings by two – this approximates agency
       contributions, which are one-half of employee
       withholdings.


       Compare the results with the RITS submission.
       Report any variances greater than 5 percent.
6d     Calculate the Option A, Option B, and Option C       The following variances were identified above the 2
       Life Insurance coverage withholdings for the         percent threshold:
       three pay periods selected by using the results of
       payroll system queries from step 6.a.                                                          Percent
       Multiply the number of employees in each age         Pay Period 24         Difference         Variance
       group by the appropriate rate for Option A in        Option A               -$206.70           -2.50%
       accordance with the rate for age groups              Option C                $465.27            4.62%
       provided in the FEGLI Program Booklet. Report
       any differences greater than 2 percent.              Pay Period 02
       Divide the reports for Option B and Option C         Option A                -$297.70          -3.62%
       insurance into the age groups shown in the           Option B              -$4,804.77          -2.66%
       FEGLI Program Booklet. For Option B, round
       the employee’s annual rate of basic pay up to        Pay Period 06
       the next 1,000, divide by 1,000, multiply by the     Option A                -$249.94          -3.02%
       rate for the age group, multiply this by the         Option B              -$5,341.10          -2.81%
       number of multiples.
       For Option C, multiply the rate for the age group
       B the number of multiples chosen for each
       employee.

       Report any differences (i.e. gross rather than
       net) greater than 2 percent of the amounts on
       the RITS submission for Option B and/or Option
       C.




                                                     7
             MANAGEMENT’S RESPONSE TO RESULTS OF PROCEDURES

The following are management’s responses to differences noted in the reported results to the Agreed-Upon
Procedures:

Step 5 c and 5 d:

“This was an error on our part. The 55 – 59 deductions made were added to the 60 and up group. The
money amounts are fine. We will contact OPM and have this corrected.”

Step 6 d:

Management has not provided an explanation for the differences noted.




                                                   8
